OFFICE OF INSPECTOR GENERAL




 SEMIANNUAL REPORT TO THE CONGRESS
                                                              Number 23




              APRIL 1, 2000 TO SEPTEMBER 30, 2000




      NATIONAL ENDOWMENT FOR THE HUMANITIES

        "Democracy demands wisdom and vision in its citizens"
  -    National Foundation on the Arts and the Humanities Act of 1965
                        Phone 202/606-8350 Fax 202/606-8329 E-mail oig@neh.gov



                                              October 30, 2000



Honorable William R. Ferris
Chairman
National Endowment for the Humanities
Washington, DC 20506

Dear Chairman Ferris:

Enclosed is the Semiannual Report for the Office of Inspector General (OIG) for the period
April 1, 2000 – September 30, 2000. The report, which is required by the Inspector General Act as
amended, provides an overview of the activities of the OIG during this six-month period. The Act requires
that you transmit this report, with your Report of Final Action, to the appropriate congressional committees
within 30 days of its receipt.

I look forward to continuing working with you and agency managers, the NEH employees Union, Congress,
and NEH's various stakeholders to help ensure that NEH delivers the grant awards in an economical and
efficient manner.

I appreciate your continued support for our office's work.


                                                  Respectfully,




                                                  Sheldon L. Bernstein
                                                  Inspector General




Enclosure
                                                  TABLE OF CONTENTS


LETTER TO THE CHAIRMAN

REPORTING REQUIREMENTS

INTRODUCTION ................................................................................................................................   1

AUDIT, SURVEY, AND INSPECTION ACTIVITIES...........................................................................                             2

INVESTIGATION ACTIVITY...............................................................................................................           5

OTHER ACTIVITIES ..........................................................................................................................     7

TABLE I - INSPECTOR GENERAL-ISSUED REPORTS ..................................................................                                   9
WITH QUESTIONED COSTS

TABLE II - INSPECTOR GENERAL-ISSUED REPORTS WITH .......................................................                                        9
RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

GLOSSARY OF AUDIT TERMINOLOGY ..........................................................................................                        10
                                  REPORTING REQUIREMENTS

The Inspector General Act of 1978, as amended (Public Law 100-504), specifies reporting requirements for
semiannual reports. The requirements are listed and cross-referenced to the applicable pages in this report.



Citation                 Reporting Requirements                                                       Page

Section 4(a)(2)          Regulatory and Legislative Reviews………………………………………………                            8

Section 5(a)(1)          Significant Problems, Abuses, and Deficiencies……………………………………                    *

Section 5(a)(2)          Recommendations for Corrective Action ………………………………………….                         *

Section 5(a)(3)          Prior Significant Recommendations Unimplemented…………………………….                     *

Section 5(a)(4)          Matters Referred to Prosecutive Authorities……………………………………….                     6

Section 5(a)(5)          Instances Where Information Was Refused or Not Provided……………………                 *

Section 5(a)(6)          List of Audit Reports Issued…………………………………………………………                              2

Section 5(a)(7)          Summary of Significant Reports…………………………………………………….                             *

Section 5(a)(8)          Audit Reports - Questioned Costs….………………………………………………                            9

Section 5(a)(9)          Audit Report - Funds Put to Better Use.……….……………………………….…                       9

Section 5(a)(10)         Prior Audit Reports Unresolved…………………………………………..………..                           *

Section 5(a)(11)         Significant Revised Management Decisions……………………………………..                        *

Section 5(a)(12)         Significant Management Decisions with which the OIG Disagreed….…………             *


        ∗=   None this period.
                                          INTRODUCTION
THE NATIONAL ENDOWMENT FOR THE HUMANITIES

In order "to promote progress and scholarship in the humanities and the arts in the United States," Congress
enacted the National Foundation on the Arts and the Humanities Act of 1965. This act established the
National Endowment for the Humanities as an independent grant-making agency of the federal government
to support research, education, and public programs in the humanities. Grants are made through four
divisions - Research Programs, Education Programs, Preservation and Access, and Public Programs -- and
three offices -- Challenge Grants, Enterprise, and Federal-State Partnership.

The act that established the National Endowment for the Humanities says "The term `humanities' includes,
but is not limited to, the study of the following: language, both modern and classical; linguistics; literature;
history; jurisprudence; philosophy; archaeology; comparative religion; ethics; the history, criticism, and
theory of the arts; those aspects of social sciences which have humanistic content and employ humanistic
methods; and the study and application of the humanities to the human environment with particular attention
to reflecting our diverse heritage, traditions, and history and to the relevance of the humanities to the current
conditions of national life.


THE OFFICE OF INSPECTOR GENERAL

The NEH’s Office of Inspector General was established on April 9, 1989, in accordance with the
Inspector General Act Amendments of 1988, Public Law 100-504. In this legislation, Congress established
Offices of Inspector General in several departments and in thirty-three agencies, including NEH. The NEH
Inspector General (IG) is appointed by the Chairman. The independence of the IG is an important aspect of
the Act. For example, the IG:

•=   cannot be prevented from initiating, carrying out, or completing an audit or investigation, or from issuing
     any subpoena;

•=   has access to all records of the agency;

•=   reports directly to the Chairman, and can only be removed by the Chairman, who must promptly advise
     Congress of the reasons for the removal; and

•=   reports directly to Congress.

The Act states that the Office of Inspector General is responsible for (1) conducting audits and
investigations; (2) reviewing legislation; (3) recommending policies to promote efficiency and effectiveness;
and (4) preventing and detecting fraud, waste, and abuse in the operations of the agency. The Inspector
General is also responsible for keeping the Chairman and Congress fully and currently informed of problems
and deficiencies in the programs and operations.

The OIG staff consists of the Inspector General, a Deputy Inspector General for Audits, two auditors, and a
secretary. The OIG and the Office of General Counsel (OGC) have a Memorandum of Understanding
detailing the procedures for the OIG to be provided with OGC legal services. Investigations are handled by
the Inspector General, an auditor and as required by the agency’s Deputy General Counsel (currently
vacant).




NEH OIG Semiannual Report                           1                                    September 2000
               AUDIT, SURVEY, AND INSPECTION ACTIVITIES

This office is responsible for external and internal audits. External auditing includes grants, pre-award
accounting system surveys, review of OMB Circular A-133 reports, and on-site quality assurance reviews of
CPA work papers. Internal efforts consists of audits, inspections, and reviews/evaluations of the NEH
administrative, programmatic, and financial operations.

During this reporting period, the OIG received and processed 155 OMB Circular A-133 audit reports and
issued fourteen memorandum reports containing findings (see Single Audit Act Reviews).


                                    LIST OF AUDIT REPORTS ISSUED

The following is a list of audit/survey reports issued by the OIG during the reporting period. The Act requires
us to report on the “Dollar Value of Recommendations that Funds Be Put to Better Use,” and the ″Total
Dollar Value of Questioned Costs (including a separate category for the dollar value of unsupported costs).”
None are reported during this period.


INTERNAL AUDITS/REVIEW                                    Report Number               Date Issued

Review of NEH Annual Performance Plan                     OIG-00-01(IR)               Draft 09/29/00
 Prepared Under the Government Performance
 Results Act (The Results Act)

Review of the Process and Controls of the                 OIG-00-02 (IR)              Draft 08/29/00
 NEH ″My History is America's History″ Project




DESK REVIEW

Amerika Samoa Humanities Council, Inc.                  OIG-00-01(DR)                  08/01/00



SINGLE AUDIT ACT REVIEWS

Georgia Humanities Council                              OIG-00-14 (CAA)                09/19/00
Georgia Humanities Council                              OIG-00-15 (CAA)                09/19/00
American Film Institute                                 OIG-00-16 CAA)                 09/19/00
Idaho Humanities Council                                OIG-00-17 (CAA)                09/19/00
Humanities Iowa                                         OIG-00-18 (CAA)                09/19/00
Humanities Iowa                                         OIG-00-19 (CAA)                09/19/00
Montana Committee for the Humanities                    OIG-00-20 (CAA)                09/19/00
Montana Committee for the Humanities                    OIG-00-21 (CAA)                09/19/00
Brown University                                        OIG-00-22 (CAA)                09/19/00
State of Connecticut (University of Connecticut)        OIG-00-23 (CAA)                09/19/00
New Jersey Council for the Humanities                   OIG-00-24 (CAA)                09/29/00
Hawaii Committee for the Humanities                     OIG-00-25 (CAA)                09/29/00
Vermont Council on the Humanities                       OIG-00-26 (CAA)                09/29/00
Delaware Humanities Council, Inc.                       OIG-00-27 (CAA)                09/29/00




NEH OIG Semiannual Report                          2                                   September 2000
                                   SUMMARY OF REPORTS ISSUED


INTERNAL AUDITS


Review of the Process and Controls of the                                         OIG-00-02 (IR)  1/
 The NEH ″My History is America's History″″ Project                               August 29, 2000

The objectives of the review were to 1) ascertain policies and procedures pertaining to procurement of
printing services for the ″My History is America's History″ project, and 2) ascertain and evaluate
management controls over budget and accounting information for the project.

Our review revealed instances where procurement of printing services processed from the Government
Printing Office was not being entered in the NEH's official requisition system. In addition, we noted that the
technical representative's budget information was not reconciled to the official NEH accounting records. We
made several recommendations to strengthen the management controls applicable to the process.


Review of the NEH Annual Performance Plan                                         OIG-00-01 (IR)   1/
 Prepared Under the Government Performance                                        September 30, 2000
 Results Act (The Results Act)

The objective of our review of the NEH annual performance plan was to assess the agency's progress
towards meeting the expectations of the Results Act and to identify opportunities for the agency to refine
and clarify the plan.

As a framework for our review, we referred to the guide entitled, The Results Act - An Evaluator's Guide to
Assessing Agency Annual Performance Plans, developed by the Advanced Studies and Evaluation
Methodology group in the General Government Division of the General Accounting Office.

To accomplish our objective we reviewed the FY 2001 Performance Plan, reviewed the NEH Strategic Plan
for FY 1998 - FY 2002, and interviewed agency officials and staff involved with the development of the FY
2001 Performance Plan. In order to assess the extent to which the FY 2001 Performance Plan meets the
requirements of the Results Act and related expectations, we designed our review to address three core
areas:

1.       Annual Performance Goals and Measures
2.       Strategies and Resources
3.       Validation and Verification

We made numerous recommendations for the NEH's Office of Strategic Planning to consider. A major
concern of ours is the validation process since most of the performance information is obtained from
grantees. We believe this first review will be beneficial in moving NEH towards an improved plan that will
showcase NEH's work.



1/ Draft reports issued




NEH OIG Semiannual Report                         3                                    September 2000
                                             DESK REVIEWS


Amerika Samoa Humanities Council                                                           OIG-00-01 (DR)
                                                                                           Dated 08/01/00

We performed a review of the organization-wide audit report prepared by an independent public accountant,
(IPA) for the year ended October 31, 1997. Our review indicated that the audit did not meet the
requirements of OMB Circular A-133. The report had deficiencies that we considered material and we did
not accept the report. The IPA will be resubmitting the report.



                                     SINGLE AUDIT ACT REVIEWS


We receive audit reports on NEH grantee organizations from other federal agencies, state and local
government auditors, and independent public accountants. These reports generally are the result of OMB
Circular A-133 audits. The single audits report on financial activities, compliance with laws and regulations,
and grantee management (internal) controls over federal expenditures. In most instances, the cognizant
agency is the Department of Health and Human Services, the federal agency with the predominant financial
interest.

During this period we received and processed 155 audit reports. Fourteen reports contained findings. We
are continuing our follow-up work on these. In addition, we expended considerable effort in determining
which grantees have not submitted OMB Circular A-133 audit reports. Several organizations do not have
sufficient funds for audits by independent public accountants. The OIG is working with these organizations
and their independent public accountants to develop an appropriate cost-effective audit approach.

To ensure that we receive OMB Circular A-133 audit reports from the state humanities councils in a timely
manner, we sent an e-mail message to all of the executive directors and Board chairpersons. We will
continue to send reminders to the state councils.


                                A-133 COMPLIANCE SUPPLEMENT

State humanities councils that receive at least $300,000 per year are subject to Office of Management and
Budget Circular A-133, “Audits of States, Local Governments, and Non-Profit Organizations″. We have
worked with OMB updating the compliance supplement for state humanities councils, which is part of the
OMB Compliance Supplement.


                                             PEER REVIEW

During this period we began a review of the OIG of the Commodity Futures Trading Corporation and the
OIG of the U.S. International Trade Commission began a review of our organization. The review is required
by the IG Act, as amended, and covers the audit operations of the OIG.




NEH OIG Semiannual Report                          4                                   September 2000
                                INVESTIGATION ACTIVITY

The Inspector General Act provides the authority for the Office of Inspector General to investigate possible
violations of criminal or civil laws, administrative regulations, and agency policies, which relate to the
programs and operations of the NEH. The OIG Hotline, E-mail address, and regular mail are efficient and
effective means of receiving allegations or complaints from employees, grantees, contractors, and the
general public. The OIG has obtained assistance from other OIGs, the Federal Bureau of Investigation, the
Postal Inspection Service, and other investigative entities as applicable.

When the OIG receives a complaint or allegation of a criminal or administrative violation, we make a
determination of the appropriate action to take. This can be an audit, an investigation, a referral to another
NEH office or division, or a referral to another federal agency.

Since the Reduction-In-Force that occurred in the last quarter of calendar year 1995, NEH employees have
contacted the OIG on matters that should have been brought to the attention of the Office of Human
Resources and the Office of Equal Employment Opportunity.

As of April 1, 2000, one matter was open in the Investigation branch of the OIG. This was closed during the
current period. During the six months ending September 30, 2000, we received ten ″Hotline″ contacts.



One Case Open at Beginning and Closed

We received a complaint from two employees of a grantee's staff stating that the former executive director
mismanaged the organization. Our review disclosed no illegal activity, although we found that funds were
mismanaged causing the organization to basically discontinue operations.


Contacts During This Period

Several of the complaints concerned e-mail; from misuse of the NEH e-mail system to unwanted e-mail
(including pornography). One matter dealt with political activity and the agency's General Council referred it
to the Office of Special Counsel. The other contacts were referred to other offices or other federal agencies.

As of September 30, 2000, all matters have been closed.




NEH OIG Semiannual Report                          5                                    September 2000
                       MATTERS REFERRED TO PROSECUTIVE AUTHORITIES

No new cases were referred for criminal prosecution.


                                 HOTLINE AND PREVENTION ACTIVITIES

We maintain a local Hotline phone number, agency E-mail address, and an Internet address. We maintain
all three to provide additional confidentiality for those persons bringing matters to the attention of the OIG.

We continue to issue agency-wide E-mail messages to NEH staff informing them of the violations that
should be reported to the OIG. We use E-mail messages to inform NEH staff about the OIG operations
several times during the year. Posters advising staff to contact the OIG are posted throughout the agency
building.


                                             Anonymous E-mail
We now have on the NEH Intranet and the Internet a system for staff, grantees, contractors, etc., to report
waste, fraud, abuse, and mismanagement in an anonymous manner.


                  Investigation Activity


Open at beginning of period                                         1

Matters brought to the OIG during the reporting period             10


   Total Investigative contacts                                    11

Closed or referred during reporting period                         11


         Open at end of period                                       0




NEH OIG Semiannual Report                          6                                     September 2000
                                       OTHER ACTIVITIES

                             INDIRECT COST RATE NEGOTIATIONS/REVIEWS

Grantees are entitled to recover total project costs, both direct and indirect. Indirect costs are those costs of
an organization or institution that are not readily identifiable with a particular project or activity but are
nevertheless necessary to the general operation of the organization or institution and the conduct of the
activities it performs.

The cost of office supplies, general telephone, postage, accounting, and administrative salaries are types of
expenses usually considered as indirect costs. In theory, all such costs might be charged directly; practical
difficulties, however, preclude such an approach. Therefore, they are usually grouped into a common
pool(s) and distributed to those organizational or institutional activities that benefit from them through the
expedient of an indirect cost rate(s).

Cognizant federal agencies approve the rates after reviewing cost allocation plans submitted by grantees.
The approved rate will generally be recognized by other federal agencies.

During this period, we negotiated indirect cost rates with eleven grantees.



                            INDIRECT COST RATE DESK REVIEW REPORTS ISSUED


Grantee                                                 Report Number               Date Issued

New Images Productions, Inc.                            OIG-00-04                   05-09-2000
American Historical Association                         OIG-00-05                   06-15-2000
New York Public Library                                 OIG-00-06                   06-23-2000
Mystic Seaport Museum                                   OIG-00-07                   08-24-2000
Newberry Library                                        OIG-00-08                   09-21-2000
Newberry Library                                        OIG-00-09                   09-21-2000
Filmmakers Collaborative                                OIG-00-10                   09-25-2000
Saint Thomas Foundation                                 OIG-00-11                   09-25-2000
Station Resource Group                                  OIG-00-12                   09-25-2000
Unicorn Projects                                        OIG-00-13                   09-29-2000
Educational Film Center                                 OIG-00-14                   09-29-2000



                                    INTRA-AGENCY COOPERATION

In this period, OIG staff attended and engaged in various NEH meetings - panel meetings (where grant
applications are reviewed by outside consultants), pre-council meetings (where the program divisions
discuss the panel review results with the chairman and his immediate staff), and the National Council
meeting. In addition, the IG attended the chairman's monthly policy group meetings. OIG staffperson
attended monthly NEH Employee Association Meetings. The staff were also involved in the review of NEH
administrative directives.

The Office of Inspector General contributes to the discussions; however, the office does not participate in
policy making.




NEH OIG Semiannual Report                           7                                    September 2000
                                       CONGRESSIONAL REQUESTS

We received and responded to several requests from both Senators and Congressmen.


                            PARTICIPATION ON THE EXECUTIVE COUNCIL ON
                                     INTEGRITY AND EFFICIENCY

The Executive Council on Integrity and Efficiency (ECIE) was established by the President in 1992 to
coordinate and implement government-wide activities to combat fraud and waste in federal programs and
operations. OIG staff regularly attend ECIE meetings and provide information to the ECIE.

                             REGULATORY AND LEGISLATIVE REVIEWS
The Inspector General Act of 1978, as amended, requires the Office of Inspector General to review
proposed legislation and regulations. The reviews are made to assess whether the proposed legislation or
regulation (1) impacts on the economy and efficiency of Endowment programs and operations, and (2)
contains adequate internal controls to prevent and detect fraud and abuse. During this period we provided
the ECIE with comments on various matters affecting the OIG community.


                                         OIG INTERNET AND INTRANET

The OIG has listed several semiannual reports on the internet. The reports are accessible through the
Inspectors General homepage (http://www.ignet.gov/ignet/internal/neh/html). The reports link to the NEH
homepage (http://www.neh.gov/html/oig/. To access the semiannual reports from outside the NEH, enter
the URL http://www.ignet.gov.

To enhance NEH staff's recognition of our mission and responsibilities, we provide links to several other
federal agencies such as the Office of Management and Budget, the General Accounting Office, the Office
of Government Ethics, and the IGNET.


                                         A-133 WAIVER ISSUED BY NEH

NEH has waived the A-133 audit requirement for grants awarded in the Centers Program and the
International Program. The reasons for dropping the A-133 audit requirement for Centers grants ".... was
the fact that our support of these projects was limited to publicity, selection costs, and the actual fellowship
stipends, with the majority of funding going to stipends. Since we know who are selected as fellows, what
their projects are, and how much they receive in the way of NEH support, we saw no reason to insist on an
audit of these grants. We are now recommending the same approach for the International Program
because, except for a small amount of funding for administrative costs, the use of NEH funds is limited to
publicity, selection costs and stipends." 1/

OMB Circular A-133 is guidance on how to implement the Single Audit Act Amendments of 1996. It is the
OIG's position that NEH does not have any provision in its reauthorizing legislation or its annual
appropriation that gives it authority to waive A-133 audit requirements. We have requested that the NEH
Office of General Counsel provide the OIG with an opinion on the propriety of the A-133 waiver. We
expected a written opinion by the end of May 1999.

A draft opinion was received in September 2000, recognizing that NEH did not have the authority to waive
the A-133 audit requirements for particular grantees or organizations.


1/ Memorandum of Director of Grants Office to Deputy Chairman.




NEH OIG Semiannual Report                                 8                              September 2000
                                               TABLE I
                                  INSPECTOR GENERAL-ISSUED REPORTS
                                 WITH QUESTIONED COSTS DOLLAR VALUE

                                                                   Number      Questioned      Unsupported
                                                                  Of Reports     Cost             Cost
A. For which no management decision has been made by the             -0-         $ -0-           $ -0-
   commencement of the reporting period.

B. Which were issued during the reporting period                      -0-          -0-                  - 0-

                            Subtotals (A+B)                           -0-        $ -0-              $ - 0-

C. For which a management decision was made during the
   reporting period.

         i.       Dollar value of disallowed costs.                   -0-       $ -0-           $ - 0-

         ii.      Dollar value of costs not disallowed (grantee       -0-       $ -0-           $ - 0-
                  subsequently supported all costs).


D. For which no management decision has been made by                  -0-       $ -0-           $ - 0-
   the end of the reporting period
.

E. Reports for which no management decision was made                  -0-       $ -0 -              $   -0-
   within six months of issuance.




                                          TABLE II
                             INSPECTOR GENERAL-ISSUED REPORTS
                    WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE


                                                                                      Number             Dollar
                                                                                     of Reports          Value

A. For which no management decision has been made by the commencement of                 -0-             $-0-
   the reporting period.

B. Which were issued during the reporting period.                                        -0-             $ -0 -

C. For which a management decision was made during the reporting period.                 -0-            $-0-

         i.       Dollar value of recommendations that were agreed to by                 -0-             $-0-
                  management.

         ii.      Dollar value of recommendations that were not agreed to by             -0-             $-0-
                  management.

D. For which no management decision was made by the end of the reporting period.         -0-             $-0




NEH OIG Semiannual Report                             9                            September 2000
                             GLOSSARY OF AUDIT TERMINOLOGY
Questioned Cost - A cost that is questioned by the OIG because of an alleged violation of a provision of a
law, regulation, contract, grant, cooperative agreement, or other agreement or document governing the
expenditure of funds; because such cost is not supported by adequate documentation; or because the
expenditure of funds for the intended purpose is unnecessary or unreasonable.

Unsupported Cost - A cost that is questioned because of the lack of adequate documentation at the time of
the audit.

Disallowed Cost - A questioned cost that management, in a management decision, has sustained or
agreed should not be charged to the government.

Funds Be Put To Better Use - Funds, which the OIG has disclosed in an audit report, that could be used
more efficiently by reducing outlays, de-obligating program or operational funds, avoiding unnecessary
expenditures, or taking other efficiency measures.

Management Decision - The evaluation by management of the audit findings and recommendations and
the issuance of a final decision by management concerning its response to such findings and
recommendations.

Final Action - The completion of all management actions, as described in a management decision, with
respect to audit findings and recommendations. When management concludes no action is necessary, final
action occurs when a management decision is made.

Source: Excerpt from Section 106(d) of the Inspector General Act Amendments of 1988 (P.L. 100-504).




NEH OIG Semiannual Report                        10                                  September 2000
                     THE OFFICE OF INSPECTOR GENERAL

                                serves American taxpayers
                          by investigating reports of waste, fraud,
                       mismanagement, abuse, integrity violations or
                        unethical conduct involving federal funds.


                             To report any suspected activity
                    Involving NEH programs, operations, or employees


                                        Please Call

                                      (202) 606-8423

                                            or,

                                          Write


                       Office of Inspector General-Hotline
                     National Endowment for the Humanities
                          1100 Pennsylvania Ave. N.W., Room 419
                                  Washington, DC 20506

                                   FAX: (202) 606-8329


                                ELECTRONIC MAIL HOTLINE
                                     OIG@neh.gov




• Government employees are protected from reprisal

• Caller can remain anonymous

• Information is confidential
